1a
APPENDIX A
United States
Court of Appeals
Fifth Circuit
FILED
December 20, 2019
Lyle W. Cayce
Clerk
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-10253
TRENT TAYLOR,
Plaintiff–Appellant,
versus
ROBERT STEVENS, Warden, Individually and in
their Official Capacity;
ROBERT RIOJAS, Sergeant of Corrections Officer,
Individually and in their Official Capacity;
RICARDO CORTEZ, Sergeant of Corrections Officer,
Individually and in their Official Capacity;
STEPHEN
HUNTER,
Correctional
Officer,
Individually and in their Official Capacity;
LARRY
DAVIDSON,
Correctional
Officer,
Individually and in their Official Capacity;

2a
SHANE SWANEY, Sergeant of Corrections Officer,
Individually and in their Official Capacity;
FRANCO ORTIZ, Correctional Officer, Individually
and in their Official Capacity;
CREASTOR HENDERSON, L.V.N., Individually and
in their Official Capacity;
STEPHANIE ORR, L.V.N., Individually and in their
Official Capacity;
JOE MARTINEZ,
Defendant–Appellees.

Appeal from the United States District Court
for the Northern District of Texas

Before OWEN, Chief Judge, JONES and SMITH,
Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Trent Taylor, a Texas inmate, sued Robert
Stevens, Robert Riojas,1 Ricardo Cortez, Stephen
Hunter, Larry Davidson, Shane Swaney, Franco
Ortiz, Joe Martinez, Creastor Henderson, and
Stephanie Orr2 under 42 U.S.C. § 1983 for violating

The district court spelled Riojas’s last name “Rojas,” but both
sides spell it “Riojas” on appeal.

1

Taylor also sued many other defendants for different events
during his incarceration at the Montford Unit. But Stevens,
Riojas, Cortez, Hunter, Davidson, Swaney, Ortiz, Martinez,

2

3a
his Eighth Amendment rights. At the time of the
events, the defendants were prison officials at the
John T. Montford Unit of the Texas Department of
Criminal Justice (“Montford Unit”).
Taylor contended generally that he was housed in
unconstitutional conditions and that various
defendants were deliberately indifferent to his health
and safety. He sought compensatory and punitive
damages, a declaratory judgment, and injunctive
relief.
Only Taylor’s individual-capacity claims are
relevant to this appeal. Specifically, Taylor appeals
the summary judgment, on the basis of qualified
immunity (“QI”), for
 Stevens, Riojas, Cortez, Hunter, Davidson,
Swaney, Martinez, and Henderson, on Taylor’s
claim that they violated the Eighth Amendment
in forcing Taylor to live in two filthy cells for six
days.
 Riojas, Martinez, Ortiz,3 and Henderson,4 on
Taylor’s claim that they were deliberately
Henderson, and Orr are the defendants-appellees for this
appeal.
3

Ortiz has not filed a brief.

The district court mistakenly analyzed this claim as involving
only Riojas, Martinez, and Ortiz, failing to include Henderson.
Yet Taylor’s complaint averred that Henderson was involved in
denying him a trip to the restroom, and on appeal he references
Henderson as a proper defendant. We therefore review the claim
with Henderson as a defendant-appellee. Regardless, we
4

4a
indifferent to his health and safety in refusing to
escort him to the restroom for a twenty-four-hour
period.
 Riojas, Martinez, and Henderson, on Taylor’s
claim that they violated the Eighth Amendment
in failing immediately to assess his chest pains.
 Orr, on Taylor’s claim that Orr was deliberately
indifferent to Taylor’s health in failing
immediately to examine Taylor upon his request
to see a doctor.
 Warden Stevens, on Taylor’s claim that Stevens
created and implemented an unconstitutional
policy that allowed the above violations.
We affirm as to all claims, save one.
I.
Stevens, Riojas, Cortez, Hunter, Davidson,
Swaney, and Martinez con-tend that Taylor filed his
notice of appeal too late,5 so we lack appellate
jurisdiction under 28 U.S.C. § 1291. We disagree. The
district court entered a final Federal Rule of Civil
Procedure 54(b) judgment on the claims relevant to
this appeal on January 5, 2017. On January 14, 2017,
Taylor timely filed a Federal Rule of Civil Procedure
conclude that Henderson is entitled to QI on the restroomrelated claim.
Henderson and Orr filed a separate brief, and they do not
contest our jurisdiction.

5

5a
59(e) motion to alter or amend that judgment. The
district court denied the motion on January 30, 2017.
Taylor had until thirty days after the Rule 59(e)
denial to file his notice of appeal. See Fed. R. App. P.
4(a)(4)(A)(iv). Taylor did so on February 22, 2017,
which is within the thirty-day limit. So, we have
jurisdiction.
II.
A. Standard of Review
“We review a summary judgment de novo,
applying the same standards as the district court. We
construe all facts and inferences in the light most
favorable to the nonmovant.” Arenas v. Calhoun, 922
F.3d 616, 620 (5th Cir. 2019) (citations omitted).
When a defendant pleads QI, however, “the burden
then shifts to the plaintiff, who must rebut the
defense by establishing a genuine fact issue as to
whether the official’s allegedly wrongful conduct
violated clearly established law.” Brown v. Callahan,
623 F.3d 249, 253 (5th Cir. 2010). We still draw all
inferences in the plaintiff’s favor. Id.
B. Qualified Immunity and Eighth Amendment
Claims
The district court granted summary judgment for
each defendant on the basis of QI. “The [QI] defense
has two prongs: whether an official’s conduct violated
a constitutional right of the plaintiff; and whether the
right was clearly established at the time of the
violation. A court may rely on either prong of the
defense in its analysis.” Id. (citations omitted). Thus,

6a
at the first prong, a prisoner bringing a § 1983 claim
for violations of the Eighth Amendment must show
that his Eighth Amendment rights were violated. See
id.
An inmate must establish two elements—one
objective, one subjective—to prevail on a conditionsof-confinement claim. Arenas, 922 F.3d at 620. First,
he must show that the relevant official denied him
“the minimal civilized measure of life’s necessities”
and exposed him “to a substantial risk of serious
harm.” Id. (quotation marks omitted). The “alleged
deprivation” must be “objectively serious.” Id. Second,
the prisoner must show “that the official possessed a
subjectively culpable state of mind in that he
exhibited deliberate indifference” to the risk of harm.
Id. (citations and quotation marks omitted).
Proving deliberate indifference is no small hurdle.
See id. “A prison official displays deliberate
indifference only if he (1) knows that inmates face a
substantial risk of serious bodily harm and (2)
disregards that risk by failing to take reasonable
measures to abate it.” Id. (quotation marks omitted).
This is a fact-intensive inquiry “subject to
demonstration in the usual ways, including inference
from circumstantial evidence.” Gates v. Cook, 376
F.3d 323, 333 (5th Cir. 2004). “[A] factfinder may
conclude that a prison official knew of a substantial
risk from the very fact that the risk was obvious.” Id.
III. Cell-Conditions Claim
In his complaint, Taylor contended that he was
forced to reside in two unconstitutionally filthy cells

7a
for six6 days. The defendants for that claim (Stevens,
Riojas, Cortez, Hunter, Davidson, Swaney, Martinez,
and Henderson) asserted QI and moved for summary
judgment, which the district court granted. We
affirm, because though there are factual disputes as
to a constitutional violation, the law wasn’t clearly
established.7
A.
Taylor stayed in the first cell starting September
6, 2013. He alleged that almost the entire surface—
including the floor, ceiling, window, walls, and water
faucet—was covered with “massive amounts” of feces
Taylor was housed in one or the other cell on each day spanning
September 6-13, 2013, but the total time he spent in the two cells
equaled about six twenty-four-hour periods. Taylor alleged that
he entered the first cell at about 11:00 p.m. on September 6 and
left it sometime between noon and 1:00 p.m. on September 10.
His time in the second cell lasted from about 2:00 p.m. on
September 11 to 10:00 a.m. on September 13.

6

Our reasons for affirming for Stevens and Henderson on the
cell-conditions claim differ from that of the other defendants.
Beyond contending that Stevens created unconstitutional prison
policies—a claim we reject as explained below—Taylor has failed
to make any allegation that Stevens was involved in placing him
in unconstitutionally dirty cells. Taylor thus has failed to create
a genuine factual dispute, and summary judgment for Stevens
was proper. See, e.g., Boudreaux v. Swift Transp. Co., 402 F.3d
536, 544 (5th Cir. 2005) (stating that the absence of evidence for
the non-movant’s claim is a proper basis for summary judgment).
As for Henderson, Taylor failed to allege that Henderson knew
about the conditions of either of Taylor’s cells. Thus, Taylor can’t
create a genuine factual dispute on deliberate indifference. See
Boudreaux, 402 F.3d at 544 (explaining that absence of evidence
is a proper basis for summary judgment).

7

8a
that emitted a “strong fecal odor.” Taylor had to stay
in the cell naked. He said that he couldn’t eat in the
cell, because he feared contamination. And he couldn’t
drink water, because feces were “packed inside the
water faucet.” Taylor stated that the prison officials
were aware that the cell was covered in feces, but
instead of cleaning it, Cortez, Davison, and Hunter
laughed at Taylor and remarked that he was “going
to have a long weekend.” Swaney criticized Taylor for
complaining, stating “[d]ude, this is [M]ontford, there
is shit in all these cells from years of psych patients.”8
On September 10, Taylor left the cell.
A day later, September 11, Taylor was moved to a
“seclusion cell,” but its conditions were no better. It
didn’t have a toilet, water fountain, or bunk. There
was a drain in the floor where Taylor was ordered to
urinate. The cell was extremely cold because the air
conditioning was always on.9 And the cell was
anything but clean.
Taylor alleged that the floor drain was clogged,
leaving raw sewage on the floor. The drain smelled
strongly of ammonia, which made it hard for Taylor
to breathe. Yet, he alleged, the defendants repeatedly
told him that if he needed to urinate, he had to do so
in the clogged drain instead of being escorted to the
restroom. Taylor refused. He worried that, because
Taylor also alleged that he asked numerous prison officials to
clean the cell but was refused.

8

Swaney allegedly told Taylor that he hoped Taylor would
“fucking freeze” in the seclusion cell, which was known to other
prisoners as “the cold room.”

9

9a
the drain was clogged, his urine would spill onto the
already-soiled floor, where he had to sleep because he
lacked a bed. So, he held his urine for twenty-four
hours before involuntarily urinating on himself.10 He
stayed in the seclusion cell until September 13. Prison
officials then tried to return him to his first, fecescovered cell, but he objected and was permitted to stay
in a different cell.
Among other claims, Taylor sued Stevens, Riojas,
Cortez, Hunter, Davidson, Swaney, Martinez, and
Henderson under § 1983, complaining that the
squalid conditions violated the Eighth Amendment.
The defendants raised the defense of QI and moved
for summary judgment in part on that basis. Taylor
responded mainly with his verified pleadings and a
declaration.
The district court granted summary judgment on
the basis of QI, noting that the defendants had
“provided little in the way of specific summary judgment evidence to support their assertion that the cells
were not, in fact, covered with feces.” But the court
found “merit in [d]efendants’ general argument …
that the alleged cell conditions [did] not rise to the
level of a constitutional violation.” The court held that
(1) because Taylor was exposed to the paltry cell
conditions “for only a matter of days,” there was no
constitutional violation under Davis v. Scott, 157 F.3d
1003 (5th Cir. 1998), and that (2) Taylor had not
“show[n] that he suffered any injury.” The court also
Taylor’s contentions related to his involuntary urination are
covered below.
10

10a
found that the defendants had allowed Taylor to
shower twice and had attempted to clean the first
cell’s walls. Taylor appeals, contesting the district
court’s application of Davis and averring that the
court improperly resolved genuine factual disputes at
summary judgment.
B.
The Eighth Amendment “does not mandate
comfortable prisons, but neither does it permit
inhumane ones.” Farmer v. Brennan, 511 U.S. 825,
832 (1994) (citation and quotation marks omitted). At
a minimum, prison officials “must provide humane
conditions of confinement” and “ensure that inmates
receive adequate food, clothing, shelter, and medical
care.” Id. They cannot deprive prisoners of the “basic
elements of hygiene” or the “minimal civilized
measure of life’s necessities.” Palmer v. Johnson, 193
F.3d 346, 352-53 (5th Cir. 1999) (quotation marks
omitted). Prison conditions cannot inflict “wanton and
unnecessary” pain. Id. at 351.
“[F]ilthy, unsanitary” cells can violate the Eighth
Amendment. Harper v. Showers, 174 F.3d 716, 720
(5th Cir. 1999). In McCord v. Maggio, 927 F.2d 844,
848 (5th Cir. 1991), for example, we found a violation
where a prisoner was forced, for a ten-month period,
to sleep on a wet mattress “in filthy water
contaminated with human waste.” Such conditions
were “unquestionably a health hazard” and were “so
unhygienic as to amount to a clear violation of the
Eighth Amendment.” Id. The responsible official
therefore did not “meet the threshold requirements
for [QI].” Id.

11a
Similarly, in Gates, 376 F.3d at 338, we held that
officials had violated the Eighth Amendment in
forcing prisoners to live in cells covered with “crusted
fecal matter, urine, dried ejaculate, peeling and
chipping paint, and old food particles.” The district
court hadn’t clearly erred in finding that “[l]iving in
such conditions” presented “a substantial risk of
serious harm to the inmates.” Id. And because the
officials could have “easily observed” those deplorable
conditions, there was no clear error in finding them
deliberately indifferent to the risk. Id.
A dirty cell does not automatically violate the
Constitution, however. A “filthy, overcrowded cell …
might be tolerable for a few days and intolerably cruel
for weeks or months.” Hutto v. Finney, 437 U.S. 678,
686-87 (1978). Heeding that instruction, we have held
that a prisoner’s three-day stay in a cell smattered
with blood and excrement did not offend the Eighth
Amendment—at least where the prisoner was given
the chance to clean the cell. See Davis, 157 F.3d at
1005-06.
1. First Prong of Qualified Immunity
The first QI prong requires Taylor to show that
his constitutional rights were violated. Brown, 623
F.3d at 253. Because this is a § 1983 Eighth
Amendment claim at summary judgment, Taylor
must show genuine factual disputes about (1)
whether the defendants denied him the minimal
civilized measure of life’s necessities and put him at a
substantial risk of serious harm and (2) whether the
defendants were deliberately indifferent to that risk.

12a
Arenas, 922 F.3d at 620. Under our caselaw, Taylor
succeeds.
a. Substantial Risk of Serious Harm
In McCord, 927 F.2d at 848, and Gates, 376 F.3d
at 338, we held it violated the Eighth Amendment to
house prisoners in truly filthy, unsanitary cells. The
conditions that Taylor said existed were like those in
McCord and Gates—if not worse. He claimed that his
first cell was covered in feces, including feces jammed
inside his water faucet. That is like the cell in Gates,
id., whose walls were covered in feces, urine, and
dried ejaculate. And Taylor alleged that the floor in
his second cell was wet with urine and had a backedup drain into which he was told to urinate, leaving
him to sleep, naked, on the urine-soaked floor.11 That
is much like the conditions that the prisoner in
McCord endured—forced to sleep on a urine-soaked
mattress on the floor each night. See McCord, 927
F.2d at 848.
To be sure, McCord and Gates involved longer
periods in deplorable conditions than the six days of
which Taylor complains. See id. (describing tenmonth period); Gates, 376 F.3d at 338 (describing cell
conditions to which prisoners were regularly
exposed). But even if the length of time matters, it
We do not suggest hold that prison officials cannot require
inmates to sleep naked on the floor. There can be any number of
perfectly valid reasons for doing so. Our holding is limited to the
extraordinary facts of this case, in which Taylor alleges that the
floor on which he slept naked was covered in his and others’
human excrement.
11

13a
isn’t dispositive. See Palmer, 193 F.3d at 353 (stating
that length of time is one factor to consider in “the
totality of the specific circumstances”).
The district court noted that the defendants had
“provided little in the way of specific summary
judgment evidence to support their assertion that the
cells were not, in fact,” in such deplorable conditions.
Instead of granting summary judgment for the
defendants, it should have recognized that Taylor’s
allegations created a factual dispute.12 For support,
the court relied on Davis, 157 F.3d at 1005-06, which
the defendants aver controls. But Davis is
distinguishable.13 Taylor spent twice as much time
locked in his squalid cells as did the Davis prisoner:
six days, compared to three. And unlike the Davis

See Fed. R. Civ. P. 56(a); Hernandez v. Velasquez, 522 F.3d
556, 561 (5th Cir. 2008) (verified pleadings are competent
summary-judgment evidence where they are based on personal
knowledge, set forth facts that would otherwise be admissible,
and show that the affiant is competent to testify).
12

The district court also relied on Smith v. Copeland, 87 F.3d
265 (8th Cir. 1996). The court there found no Eighth Amendment
violation where a prisoner was housed in a cell with backed-up
sewage (from an overflowing toilet) for four days. Id. at 268-69.
The relatively short duration of the conditions, combined with
the fact that the prisoner refused an opportunity to flush the
toilet and clean the cell, meant no constitutional offense. See id.

13

Yet for the reasons that Davis is distinguishable, Smith is, too.
Taylor alleges that he spent six days in his filthy cells—which is
longer than the four days in Smith. And, even more relevantly,
unlike the prisoner in Smith, Taylor wasn’t given the chance to
clean his cell.

14a
prisoner, see id., Taylor wasn’t given the chance to
clean his cells, as the district court found.14
The defendants also complain that Taylor offered
only conclusional allegations, without supporting
evidence, about the conditions. But that ignores that
verified pleadings are competent evidence at
summary judgment.15 And even though Taylor’s
pleadings include conclusional language, they also
teem with specific factual allegations.16 We thus find

The district court did find that the defendants had attempted
to clean Taylor’s cells and relied upon that in granting summary
judgment. Yet in doing so, the court improperly resolved a
genuine factual dispute. See Fed R. Civ. P. 56(a). Taylor contends
that the defendants attempted to clean his first cell (the fecescovered one) only after he left it. As to the seclusion cell, Taylor
states, in his complaint, that Riojas tried to “spot dry[]” its floor
on September 12, one day after Taylor had entered that cell. But
Taylor contended that “lots of urine/sewage still remained on
[his] floor” after the spot dry. Thus, whether—and the extent to
which—the defendants attempted to clean Taylor’s cell was a
factual dispute ill-suited for summary judgment. See id.
14

See Lodge Hall Music, Inc. v. Waco Wrangler Club, Inc., 831
F.2d 77, 80 (5th Cir. 1987) (holding that verified pleadings are
competent summary judgment evidence where they are based on
personal knowledge, set forth facts that would otherwise be
admissible, and show that the affiant is competent to testify);
Hernandez, 522 F.3d at 561 (same).
15

Take Page 4-A of Taylor’s verified complaint as an example.
To be sure, that page includes some conclusional language. For
example, Taylor states that he was subjected to “unnecessary
and wanton infliction of pain contrary to the contemporary
standards of decency” and that the prison officials had “showed
deliberate indifference to [his] safety and health.” But that’s not
all that Taylor says. He also recites highly specific facts about
16

15a
genuine factual disputes over whether the paltry
conditions of Taylor’s cells exposed him to a
substantial risk of serious harm and denied him the
minimal civilized measure of life’s necessities. See
Arenas, 922 F.3d at 620.
b. Subjective Deliberate Indifference
Taylor has created genuine factual disputes on
the subjective deliberate-indifference prong of his
Eighth Amendment claim. See id. “Deliberate
indifference is an extremely high standard to meet. A
prison official displays deliberate indifference only if
he (1) knows that inmates face a substantial risk of
serious bodily harm and (2) disregards that risk by
failing to take reasonable measures to abate it.” Id.
(cleaned up). Deliberate indifference can be proven
via circumstantial evidence, “and a factfinder may
conclude that a prison official knew of a substantial
risk from the very fact that the risk was obvious.”
Gates, 376 F.3d at 333.
Taylor repeatedly alleged that the defendants
knew that his cells were covered in feces and urine
and that he had an overflowing sewage drain in his
seclusion cell. “The risk” posed by Taylor’s exposure
to bodily waste “was obvious.”17 And the risk was
the feces-smeared contents of his cell, Cortez’s dismissive
remarks about the feces, the temperature of the room, and so on.
See Gates, 376 F.3d at 333; see also id. at 341 (“Frequent
exposure to the waste of other persons can certainly present
health hazards that constitute a serious risk of substantial
harm.”).
17

16a
especially obvious here, as the defendants forced
Taylor to sleep naked on a urine-soaked floor. Taylor
also alleged that the defendants failed to remedy the
paltry conditions, so he has shown factual disputes on
deliberate indifference. In sum, Taylor has met his
burden at the first QI prong to show that his Eighth
Amendment rights were violated. See Arenas, 922
F.3d at 620.
2. Second Prong of Qualified Immunity
The second prong of QI asks “whether the right
was clearly established at the time of the violation.”
Brown, 623 F.3d at 253. We should not define the
relevant right “at a high level of generality.” Ashcroft
v. al-Kidd, 563 U.S. 731, 742 (2011). Instead, “[t]he
dispositive question is whether the violative nature of
particular conduct is clearly established.” Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015) (per curiam)
(quotation marks omitted). “We do not require a case
directly on point, but existing precedent must have
placed the statutory or constitutional question beyond
debate.” al-Kidd, 563 U.S. at 741. The “salient
question,” therefore, is whether the defendants had
“fair warning” that their specific actions were
unconstitutional. Hope v. Pelzer, 536 U.S. 730, 741
(2002).18

Accord Delaughter v. Woodall, 909 F.3d 130, 139 (5th Cir.
2018) (“The central concern is whether the official has fair
warning that his conduct violates a constitutional right.”);
Austin v. Johnson, 328 F.3d 204, 210 (5th Cir. 2003) (“[O]fficers
need only have fair warning that their conduct is unlawful.”
(quotation marks omitted)).
18

17a
The law wasn’t clearly established. Taylor stayed
in his extremely dirty cells for only six days. Though
the law was clear that prisoners couldn’t be housed in
cells teeming with human waste for months on end,
see, e.g., McCord, 927 F.2d at 848, we hadn’t
previously held that a time period so short violated
the Constitution, e.g., Davis, 157 F.3d at 1005-06
(finding no violation partly because the defendant
stayed in the cell for only three days). That dooms
Taylor’s claim. Indeed, the ambiguity in the caselaw
was apparent even in dicta from the Supreme Court,
which has instructed that a “filthy, overcrowded
cell … might be tolerable for a few days and
intolerably cruel for weeks or months.” Hutto, 437
U.S. at 686-87. It was therefore not “beyond debate”
that the defendants broke the law. al-Kidd, 563 U.S.
at 741. They weren’t on “fair warning” that their
specific acts were unconstitutional. Hope, 536 U.S. at
741.
Accordingly, Taylor hasn’t met his burden to
overcome QI on his cell-conditions claim. Though he
showed genuine disputes about a constitutional
violation, the law wasn’t clearly established. We
therefore affirm the summary judgment for Riojas,
Cortez, Hunter, Davidson, Swaney, and Martinez on
that claim. (And, for separate reasons explained
above, we affirm the summary judgment for Stevens
and Henderson on that claim.)
IV. Claims of Deliberate Indifference to Health and
Safety
Taylor contends that the district court erred in
granting summary judgment for various defendants

18a
on his claims of indifference to his health and safety.
Specifically, he appeals on three such claims for which
the court granted summary judgment:
A. That Riojas, Martinez, Ortiz, and
Henderson were deliberately indifferent in
refusing to escort Taylor to the restroom for
a twenty-four-hour period on September 12,
2013.
B. That Riojas, Martinez, and Henderson were
deliberately
indifferent
in
failing
immediately to assess his chest pains on
September 12, 2013.
C. That Orr was deliberately indifferent in
failing immediately to examine Taylor after
Taylor requested to see a doctor on
September 14, 2013.
A. Denial of Restroom Visit
Taylor contends that the district court erred in
granting summary judgment on Taylor’s claim that
Riojas, Martinez, Ortiz, and Henderson were
deliberately indifferent to Taylor’s health in refusing
to escort him to the toilet for twenty-four hours on
September 12, 2013. Taylor alleged that he repeatedly
asked Riojas, Ortiz, and Martinez to take him from
his seclusion cell to the restroom that day. But they
told him to urinate in the drain in his cell’s floor, even
though it was already overflowing with sewage.
Taylor refused to do so because he didn’t want to spill
even more urine onto the floor where he would have
to sleep—naked—that evening.

19a
Finally, after holding in his urine for twenty-four
hours, Taylor’s bladder pain intensified, and he
urinated involuntarily on himself. He alleged that he
“tried to get [his urine] in the drain,” but that because
the drain was clogged, his urine “mix[ed] with the raw
sewage and r[a]n all over [his] feet.” Taylor “got down
on [his] hands and knees and began to scoop the
sewage away from the area of the floor” where he
would have to sleep that night. Eventually, he had to
be treated for a distended bladder and was
catheterized.
In moving for summary judgment, Riojas, Ortiz,
Martinez, and Henderson raised QI. The district court
noted that they had not “directly den[ied] [Taylor’s]
allegations that they refused him the opportunity to
use the restroom … or that they advised him to pee in
the drain like everyone else.” But the court granted
summary judgment anyway. It found that (1) security
notes that the defendants had provided contradicted
Taylor’s allegations, showing that Taylor had
repeatedly refused to visit the toilet on September 12
and had been taken around 7:00 p.m.; (2) Taylor had
“not provided anything other than unsupported and
conclusory assertions that he was denied the
opportunity to go to the restroom for 24 hours”; (3)
Taylor “ha[d] not demonstrated that it was not
physically possible for him to relieve himself in the
drain as instructed and thus prevent his discomfort”;
and (4) Taylor had failed to “establish a physical
injury that [was] more than de minimis.” Thus, the
court decided that the defendants were entitled to QI
because Taylor had not shown a constitutional
violation.

20a
We reverse the summary judgment except as to
Henderson.19 Restating the law from above, to
overcome QI, Taylor must show genuine factual
disputes that his clearly established Eighth
Amendment rights were violated. Brown, 623 F.3d at
253. That requires him to show a fact issue over
whether (1) objectively, the defendants exposed him
to a substantial risk of serious harm and denied him
the minimal civilized measure of life’s necessities and
(2) subjectively, the defendants were deliberately
indifferent to the risk. See Arenas, 922 F.3d at 620.
Taylor also must demonstrate that the right was
clearly established. Brown, 623 F.3d at 253.
In Palmer, 193 F.3d at 352, we found an Eighth
Amendment violation where prison officials
“complete[ly] depriv[ed]” “scores of inmates” of a
minim-ally sanitary way to relieve themselves for
seventeen hours. Forty-nine inmates were forced to
sleep outdoors overnight, confined to a twenty-bythirty-foot area. Id. at 349. Prison officials refused to
let the inmates leave the small area to relieve
Even taken as true, Taylor’s allegations against Henderson
regarding the failure to take Taylor to the restroom don’t
establish a constitutional violation. So, we affirm summary
judgment for Henderson on that claim. In his complaint, Taylor
alleged only that he told Henderson that he “need[ed] to use the
restroom really bad,” and that Henderson responded that she
would “let the officers know.” Taylor didn’t allege that
Henderson failed to notify the officers. And even if Henderson
did fail to do so (which is not in the record), such would amount,
at most, to a showing of negligence, not deliberate indifference.
That is not enough to create an Eighth Amendment violation.
Arenas v. Calhoun, 922 F.3d 616, 620 (5th Cir. 2019). Summary
judgment for Henderson on the restroom claim was proper.
19

21a
themselves. Instead, the prisoners had to urinate and
defecate in the ground beneath them, right next to
their fellow inmates. See id. We held that the
prisoners’ Eighth Amendment rights had been
violated, even though the episode lasted a mere
seventeen hours. Id. at 353-54. The “conditions
constitute[d] a deprivation of basic elements of
hygiene.” Id. at 352 (quotation marks omitted).
So too for Taylor. Granted, the circumstances
differ in some ways from those in Palmer. See id.
Taylor was alone in his prison cell the day he was
allegedly refused a trip to the restroom; he was not
outdoors overnight, crammed into a small space with
other inmates. Yet the most salient facts are similar.
Taylor alleged that sewage from the clogged drain
was overflowing. Had he urinated in the drain, he
would have been resigned to sleep naked in his (and
others’) urine overnight. So, he refused (until finally
involuntarily urinating on himself). The prisoners in
Palmer were faced with a similarly grisly choice:
either relieve themselves on the very ground where
they would sleep, or, hold it in for seventeen hours.
Such circumstances exposed the Palmer prisoners to
a substantial risk of serious harm and deprived them
of the minimal civilized measure of life’s necessities.
See id. A reasonable jury could find the same here.
Taylor also has met his burden to show genuine
factual disputes on subjective deliberate indifference.
See Arenas, 922 F.3d at 620. Taylor alleged that he
told Riojas, Martinez, and Ortiz that he couldn’t
urinate in the drain because of the overflow and that
he badly needed to use the restroom. Yet those
defendants repeatedly refused to escort him to the

22a
restroom, instead instructing him to pee in the
clogged drain like everyone else.
We found deliberate indifference in similar
circumstances in Palmer, 193 F.3d at 353. The prison
officials there were deliberately indifferent because
they “ordered the sleep-out,” refused to let prisoners
relieve themselves outside the confined area, and
were “present during the evening.” Id. Similarly,
Riojas, Martinez, and Ortiz allegedly refused to let
Taylor urinate any-where other than into his clogged
drain, knew that meant he would have to sleep in his
own urine, and were present for those events. Taylor
has established fact issues as to deliberate
indifference.
Having found a constitutional violation, we also
conclude that Palmer clearly established the
underlying Eighth Amendment right, even defining it
narrowly (as we must). See id. at 352-53. Under
Palmer, prison officials cannot fail to provide inmates
a minimally sanitary way20 to relieve themselves for
a period of seventeen hours, leaving them no choice
but to sleep in their own waste overnight. See id. The
time period Taylor alleged is even longer: a full day.
Nothing in this opinion requires prison officials to provide a
prisoner with a squeaky-clean toilet nor to escort him to the
restroom whenever he wishes. This case is extraordinary: McCoy
alleges that he was refused a trip to the restroom for twenty-four
hours and was provided no other sanitary way to relieve himself,
which forced him to urinate on himself and on the very ground
where he had to sleep. We held that similar circumstances
violated the Constitution in Palmer, and we find the same here.
We go no further.
20

23a
In defending the summary judgment, the
defendants contend that “Taylor was constantly
refusing to take trips to the restroom” on the day in
question. But even if we found that view of the
evidence more persuasive (as the district court did21),
it would not be for us to resolve at summary
judgment.22 Indeed, the district court noted that
“R[i]ojas, Ortiz, and Martinez [did] not directly deny
[Taylor’s] allegations that they refused him the
opportunity to use the restroom … or that they
advised him to pee in the drain like everyone else.”
The district court should have seen the implications—
a genuine factual dispute.
The defendants also maintain that to state a
claim, Taylor was “required to establish a physical
injury beyond de minimis.” They’re right that, under
the Prison Litigation Reform Act, 42 U.S.C. §
The district court credited the defendants’ security-note
evidence as showing that Taylor had repeatedly refused to use
the restroom on September 12 and had used the restroom one
time that evening. By contrast, the court characterized Taylor’s
pleadings as providing “unsupported and conclusory assertions
that [Taylor] was denied the opportunity to go to the restroom.”
We disagree. Taylor’s allegations were hardly conclusory; they
recited specific instances in which Taylor told Riojas, Martinez,
and Ortiz that he badly needed to use the restroom and in which
they refused to take him. And allegations in verified pleadings
are competent summary judgment evidence, so it was wrong for
the district court to dismiss them. See Lodge Hall Music, Inc. v.
Waco Wrangler Club, Inc., 831 F.2d 77, 80 (5th Cir. 1987).
21

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249 (1986) (“[A]t
the summary judgment stage the judge’s function is not himself
to weigh the evidence and determine the truth of the matter but
to determine whether there is a genuine issue for trial.”).

22

24a
1997e(e), Taylor, to recover for emotional suffering,
must show a more-than-de-minimis physical injury.
See Siglar v. Hightower, 112 F.3d 191, 193 (5th Cir.
1997). But Taylor has shown such an injury. As a
result of holding in his urine for so long, his bladder
became distended, and he had to be catheterized.23
Accordingly, there are genuine factual disputes
whether Riojas, Martinez, and Ortiz violated Taylor’s
Eighth Amendment rights in refusing to escort him to
the restroom for twenty-four hours.24 Those
defendants are not entitled to QI, and the district
court erred in granting them summary judgment on
that claim.
B. Chest Pain
The district court granted summary judgment for
Riojas, Martinez, and Henderson on Taylor’s claim
that they violated the Eighth Amendment by ignoring
his complaints of chest pain on September 12, 2013.
On appeal, Taylor only briefly mentions that issue
and fails to argue any error relating to it, so it is
waived.

Cf. Edwards v. Stewart, 2002 WL 1022015, at *2 (5th Cir. May
10, 2002) (holding that injuries of “cuts to [the prisoner’s] fingers
and thumb, headache, neck pain, and lacerations to the ear,”
weren’t de minimis, particularly because the prisoner had
needed “medical treatment for the injuries”).

23

For the reasons described above, however, we affirm summary
judgment for Henderson on the restroom-trip claim.
24

25a
C. Delay in Medical Treatment
Taylor challenges the summary judgment for
nurse Stephanie Orr, who Taylor alleged had violated
the Eighth Amendment in failing immediately to
examine and treat him after he asked to see a doctor.
Taylor contended that on Saturday, September 14,
2013, he was having bladder pain and decided he
needed to see a doctor. Orr visited Taylor in his
seclusion cell, where Taylor asked to meet with a
doctor. Taylor did not allege that he told Orr why he
needed one. Orr replied that Taylor should write up a
“nurse sick-call” two days later on Monday—which
was the standard procedure. At that point, the
conversation ended.
Later that day, at about 4:00 p.m., Taylor’s
bladder pain worsened. He contacted Orr again, and
this time he explained why he needed a doctor. Orr
allegedly responded: “How come you didn’t say
anything sooner?” Orr then assessed Taylor,
determined he had a distended bladder, and sent him
to the ER, where he was catheterized.
Taylor contends on appeal that Orr was
deliberately indifferent in failing to assess him
immediately after he requested a doctor. The district
court rejected that contention and granted summary
judgment for Orr based on QI. It held that, at most,
Taylor’s allegations showed that Orr had behaved
negligently and not with deliberate indifference.
We agree with the district court and affirm
summary judgment for Orr. Merely negligent medical
treatment of prisoners “does not constitute deliberate

26a
indifference.” Arenas, 922 F.3d at 620. Instead, an
inmate “must show that the officials refused to treat
him, ignored his complaints, intentionally treated
him incorrectly,” or otherwise “evince[d] a wanton
disregard for any serious medical needs.” Id.
(quotation marks omitted). “[D]elay in medical care
can only constitute an Eighth Amendment violation if
there has been deliberate indifference, which results
in substantial harm.” Mendoza v. Lynaugh, 989 F.2d
191, 195 (5th Cir. 1993).
Taylor has failed to reveal any factual dispute
whether Orr violated his Eighth Amendment rights.
Even accepting his allegations at face value, they
show only negligence, not deliberate indifference. See
Arenas, 922 F.3d at 620. Taylor did not allege that Orr
knew about his bladder pain until 4:00 p.m., when he
reached out to her a second time. Orr admonished him
for failing to tell her earlier about the bladder pain,
and she promptly and dutifully evaluated him and
sent him to the ER. Deliberate indifference is a high
bar, and Taylor does not come close to demonstrating
it. See id.
V. Claim of an Unconstitutional Policy
Taylor contends that the district court improperly
granted summary judgment for Warden Robert
Stevens based on QI. Taylor avers that Stevens
promulgated and implemented unconstitutional
policies that facilitated Taylor’s mistreatment at the
Montford Unit. The district court rejected that claim,
reasoning that because Taylor hadn’t shown that any
of the other defendants had violated Taylor’s rights,

27a
Stevens—their supervisor—couldn’t have violated
them, either.
To be sure, above we concluded that a reasonable
jury could have found that several defendants
violated Taylor’s constitutional rights. Yet we may
affirm on any basis that the record supports, see
Lincoln v. Scott, 887 F.3d 190, 195 (5th Cir. 2018), and
here we choose to do so, because Taylor has failed to
point our attention to any specific policy.
Under § 1983, “[s]upervisory liability exists even
without overt personal participation in the offensive
act if supervisory officials implement a policy so
deficient that the policy itself is a repudiation of
constitutional rights and is the moving force of the
constitutional violation.” Thompkins v. Belt, 828 F.2d
298, 304 (5th Cir. 1987) (cleaned up). But as a
threshold matter, a plaintiff cannot avoid summary
judgment merely by asserting the legal conclusion
that an unconstitutional policy existed.25 That is
precisely what Taylor does. The district court
therefore properly granted summary judgment for
Stevens on the basis of QI.

See Booker v. Koonce, 2 F.3d 114, 117 (5th Cir. 1993) (pointing
out that conclusory allegations are not enough to defeat
summary judgment); see also Oliver v. Scott, 276 F.3d 736, 742
(5th Cir. 2002) (affirming dismissal because the complaint
“fail[ed] to identify any specific policy or to explain how those
policies led to constitutional violations”); Sun v. United States,
No. 94-10604, 1995 WL 103351, at *4 (5th Cir. Mar. 1, 1995) (per
curiam) (affirming summary judgment on the basis of QI
because “Sun’s unsupported allegations of the existence of a
policy are merely conclusional.”).

25

28a
****
In summary, for the reasons stated, we decide as
follows:
 We AFFIRM the summary judgment for Riojas,
Cortez, Hunter, Davidson, Swaney, Martinez,
Stevens, and Henderson on Taylor’s claim related
to the conditions of his cells.
 We REVERSE and REMAND the summary
judgment for Riojas, Martinez, and Ortiz on
Taylor’s claim related to their failure to take him
to the restroom, but we AFFIRM summary
judgment for Henderson on that claim.
 We AFFIRM the summary judgment for Riojas,
Martinez, and Henderson on Taylor’s claim
related to their failure to treat his chest pain.
 We AFFIRM the summary judgment for Orr on
Taylor’s claim related to Orr’s failure to treat his
bladder pain.
 We AFFIRM the summary judgment for Stevens
on Taylor’s claim that Stevens promulgated an
unconstitutional policy.
We place no limitation on the matters that the district
court can consider consistent with this opinion, nor do
we suggest what decisions that court should make.

29a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION
TRENT TAYLOR,
Institutional ID
No. 1691384,
SID NO. 6167597,
Previous TDCJ No.
1336391,

§
§
§
§
§
§
§
Plaintiff,
§
§ CIVIL ACTION
v.
§ NO. 5:14-CV-149-C
§
ROBERT STEVENS, et al., §
§
Defendants.
§ ECF
ORDER
Came to be considered on this day, Plaintiff Trent
Taylor’s action under 42 U.S.C. § 1983 against
Defendants Robert Stevens, Robert Rojas1, Ricardo
Cortez, Stephen Hunter, Larry Davidson, Shane
Swaney, Franco Ortiz, Joe Martinez, Creastor
Henderson, Stephanie Orr, and Melissa Olmstead.
Defendants were all correctional officers and/or
Plaintiff spells this Defendant’s last name “Riojas” while the
Attorney General spells the name “Rojas.” Although the Court
has used the Plaintiff’s spelling in prior Orders, the Court adopts
the correct spelling of “Rojas.”

1

30a
officials employed at the John T. Montford Unit of the
TDCJ-ID at the time of the events giving rise to this
complaint.
I. BACKGROUND
Trent Taylor, acting pro se, filed a civil rights
complaint pursuant to 42 U.S.C. § 1983 on September
2, 2014, and was granted permission to proceed in
forma pauperis. Based on the complaint and
Plaintiff’s testimony during a Spears2 hearing, the
Court found that Plaintiff had raised claims that were
sufficient to require responsive pleadings for the
alleged claims of constitutional violations. Following
the filing of answers and motions to dismiss pursuant
to Federal Rule of Civil Procedure 12(b)(6) by most of
the Defendants, the United States Magistrate Judge,
noting that Defendants had failed to consent to
proceed before her, entered a Report and
Recommendation on January 22, 2016. On March 29,
2016, the Court adopted the Report and
Recommendation and dismissed certain of the claims
and Defendants pursuant to Federal Rule of Civil
Procedure 54(b).3 The only claims remaining in this
action are the following:
(1) Plaintiff’s
individual
capacity
claims
concerning cell conditions and deliberate
indifference to serious medical needs against
2

Spears v. McCotter, 766 F.2d 179, 181-82 (5th Cir. 1985).

Plaintiff filed a notice of interlocutory appeal from that Order
and his appeal remains pending before the United States Court
of Appeals for the Fifth Circuit. See U.S.C.A. No. 16-10498.

3

31a
Defendants Robert Stevens, Robert Rojas,
Ricardo Cortez, Stephen Hunter, Larry
Davidson, Shane Swaney, Franco Ortiz4, Joe
Martinez,
Creastor
Henderson,
and
Stephanie Orr; and
(2) Plaintiff’s
individual
capacity
claim
concerning excessive use of force against
Defendant Melissa Olmstead.
Now before the Court are the following:
(1) Defendants Robert Stevens, Robert Rojas,
Ricardo Cortez, Stephen Hunter, Larry
Davidson, Melissa Olmstead, and Shane
Swaney’s Motion for Summary Judgment5
filed on October 10, 2016;
(2) Defendants
Creastor
Henderson
and
Stephanie Orr’s Motion for Summary
Judgment filed on November 14, 2016; and
(3) Plaintiff’s Brief in Opposition to Defendants’
Motion for Summary Judgment filed on
November 2, 2016.
(4) Plaintiff’s Motion to Excuse Local Rule of
Judges Copy and Motion to Allow Plaintiff to

The Court notes that Defendant Franco Ortiz has been served
but has not made an appearance in this case.

4

The Court notes that Defendant Joe Martinez has been served
and has previously filed responsive pleadings but was not
included as a party to either Motion for Summary Judgment.

5

32a
Have His Exhibits
November 2, 2016.

Returned

filed

on

Having considered the pleadings and records filed
in this case, the Court finds that all of Plaintiff’s
claims, except for his claims of excessive use of force
against Defendant Melissa Olmstead in her
individual capacity, should be dismissed for the
reasons set forth below.
II. SUMMARY OF COMPLAINT
The incidents giving rise to Plaintiff’s complaint
were described in detail in the Report and
Recommendation entered January 22, 2016, and
generally consist of claims of cruel and unusual
punishment, deliberate indifference, and excessive
use of force while he was incarcerated at the Montford
Unit. Pursuant to that Report and Recommendation
a number of claims and Defendants were dismissed.
Plaintiff’s remaining claims may be summarized as
follows:
Cruel and Unusual Punishment
Plaintiff alleges that he was subjected to cruel
and unusual punishment in violation of the Eighth
Amendment when he was forced by Defendants
Stevens, Rojas, Cortez, Hunter, Davidson, Swaney,
Martinez, and Henderson to live in what he described
as filthy conditions for several days between
September 6, 2013, and September 14, 2013, while he
was incarcerated at the John T. Montford Unit in
Lubbock, Texas. Plaintiff alleges that at one point
during that time he was denied a bathroom break for

33a
24 hours, causing him to feel chest pains and burning
eyes and throat and ultimately leading to his
urinating on himself. Specifically, Plaintiff claims
that Defendants knowingly placed him in two
different cells that were severely unsanitary. The first
cell (Cell B-2, 45) that he was placed in for almost 4
days from 11:00 p.m. on September 6, 2013, until
sometime between noon and 2:00 p.m. on September
10, 2013, was soiled with fecal matter on the floor,
ceiling, walls, and water faucet. He alleges that after
he was removed from the cell for a short period of
time, officials attempted to return him to the same
dirty cell; however, he refused, falsely claiming that
he would harm himself. On September 11, 2013, at
approximately 1:55 p.m., he was moved to a seclusion
cell (Cell D-2, 51) and remained there until
approximately 3:00 p.m. on September 13, 2013. The
second cell was a seclusion cell equipped with only a
drain hole in the floor that was clogged with raw
sewage that seeped onto the floor where he was forced
to sleep, naked and with only a suicide blanket to stay
warm. While he was confined in the second cell,
Plaintiff claims, he was refused a bathroom break for
24 hours, despite notifying officials that he needed to
go and refusing their alleged instructions to urinate
in the backed-up drain like everyone else. Plaintiff
further alleges that as a result of holding his bladder
for so long he experienced chest pains and severe
bladder pain and because of the pain finally doubled
over and urinated on himself.
Deliberate Indifference
Plaintiff next claims that Defendants were
deliberately indifferent to his health and safety needs

34a
when they forced him to remain in the filthy cells
despite his complaints and refused him bathroom
breaks for 24 hours. Plaintiff argues that as a result
of holding his bladder for so long, he suffered from a
distended bladder and had to be taken to the
emergency room and catheterized, but not until after
he had made several requests for medical attention on
September 13, 2013 that were allegedly disregarded
by Defendant Orr. According to Plaintiff he suffered a
lasting injury as a result of the foregoing events in the
form of bladder and urinary incontinence and spasms.
Plaintiff also claims that his complaints of chest pains
were intentionally ignored by Defendants Rojas,
Martinez, and Henderson.
Excessive Use of Force
Finally, Plaintiff alleges that Defendant Melissa
Olmstead used excessive force on October 14, 2013,
when she rammed a steel bar forward and hit him in
the testicles after Plaintiff and Olmstead argued by
his cell. Plaintiff claims that he was transported a
couple of hours later to the emergency room, where he
was prescribed an ice pack which he was to use for 24
hours, as well as a 3-day prescription for ibuprofen.
He claims that he sustained a permanent injury to his
right testicle from the assault and still suffers pain
with urination and ejaculation.
III. MOTIONS FOR SUMMARY JUDGMENT
A motion for summary judgment permits a court
to resolve a lawsuit without conducting a trial if the
court determines (1) there is no genuine dispute as to
any material facts and (2) the moving party is entitled

35a
to judgment as a matter of law. Fed. R. Civ. P. 56(c);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986).
See Crawford-El v. Britton, 523 U.S. 574, 600 (1998)
(“[S]ummary judgment serves as the ultimate screen
to weed out truly insubstantial lawsuits prior to
trial.”). A fact is “material” if it might affect the
outcome of the suit under the governing law. Id. at
248. A dispute over a material fact is “genuine” if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party. Id. at 250. “[T]he
mere existence of some alleged factual dispute
between the parties will not defeat an otherwise
properly supported motion for summary judgment;
the requirement is that there be no genuine issue of
material fact.” Id. at 247-48 (emphasis in original).
“Where the record taken as a whole could not lead a
rational trier of fact to find for the non-moving party,
there is no ‘genuine issue for trial.’” Scott v. Harris,
550 U.S. 372, 380 (2007) (quoting Matsushita Elec.
Industrial Co. v. Zenith Radio Corp., 475 U.S. 574,
586-87 (1986) (footnote omitted)).
The party moving for summary judgment must
first demonstrate that “there is an absence of evidence
to support the non-moving party’s cause.” Celotex
Corp. v. Garrett, 477 U.S. 317, 325 (1986). The moving
party satisfies this requirement by (1) submitting
evidentiary documents that negate the existence of
some material element of the non-moving party’s
claim or (2) pointing out the absence of evidence to
support the non-moving party’s claim, if the nonmoving party will bear the burden of proof on that
claim at trial. King v. Dogan, 31 F.3d 344, 346 (5th
Cir. 1994). Once the moving party satisfies this initial
requirement, the burden shifts to the non-moving

36a
party to “go beyond the pleadings and designate
specific facts showing that there is a genuine issue for
trial.” Little v. Liquid Air Corp., 37 F.3d 1069, 1075
(5th Cir. 1994). If the moving party supports his
motion with evidence, the non-moving party cannot
simply rely on conclusory legal allegations but must
present affirmative evidence in order to defeat the
motion for summary judgment. Anderson v. Liberty
Lobby, Inc., 477 U.S. at 248-255.
“[I]n ruling on a motion for summary judgment,
‘[t]he evidence of the nonmovant is to be believed, and
all justifiable inferences are to be drawn in his favor.’”
Tolan v. Cotton, — U.S. —, 134 S. Ct. 1861, 1863
(2014) (per curiam) (quoting Anderson v. Liberty
Lobby, Inc., 477 U.S. at 255). In drawing all justifiable
inferences in favor of the nonmovant, a court “must
distinguish between evidence of disputed facts and
disputed matters of professional judgment.” Beard v.
Banks, 548 U.S. 521, 529-30 (2006).
“On summary judgment, factual allegations set
forth in a verified complaint may be treated the same
as when they are contained in an affidavit,” Hart v.
Hairston, 343 F.3d 762, 765 (5th Cir. 2003). See
Falcon v. Holly, 480 Fed. Appx. 325, 326 (5th Cir.
2012) (per curiam) (“[A]llegations in [a] verified
complaint and other verified pleadings as well as …
sworn testimony at [a] Spears … hearing constitute
competent summary judgment evidence.”); Jones v.
Collins, 132 F.3d 1048, 1052 (5th Cir. 1998) (holding
that a district court may consider pleadings,
depositions, answers to interrogatories, admissions
on file, and affidavits, if any, when ruling on a motion
for summary judgment). A nonmoving party cannot,

37a
however, ‘“defeat summary judgment with conclusory
allegations, unsubstantiated assertions, or “only a
scintilla of evidence.”’” Hathaway v. Bazany, 507 F.3d
312, 319 (5th Cir. 2007) (quoting Turner v. Baylor
Richardson Med. Ctr., 476 F.3d 337, 343 (5th Cir.
2007) (quoting Little v. Liquid Air Corp., 37 F.3d at
1075)).
A. Defendants’
Judgment

Motions

for

Summary

In their Motions for Summary Judgment,
Defendants assert that they are entitled to summary
judgment because (a) Plaintiff has failed to exhaust
his administrative remedies, (b) they are entitled to
qualified immunity, and (c) there is no evidence that
Defendant Olmstead used any force against Plaintiff.6
In sum, Defendants argue that there is no genuine
issue of material fact remaining for trial.
In support of their Motion for Summary
Judgment, Defendants Stevens, Rojas, Cortez,
Hunter, Davidson, Olmstead, and Swaney included
577 pages of exhibits, including the following:

Although Defendants included arguments regarding Plaintiff’s
request for injunctive relief, the Court notes that such claims
were explicitly dismissed as moot pursuant to the Order and
Judgment entered March 29, 2016. Consequently, no further
discussion of injunctive relief is warranted.

6

38a
Exhibit A: Trent Taylor’s Texas Department of
Criminal Justice No Records Affidavit
for Use of Force Report, TDCJ#:
01691384 (Bates Stamped Ex. A 001).
Exhibit B: Trent Taylor’s Texas Department of
Criminal Justice Medical Records,
TDCJ#: 01691384 from April 2013 to
January 2015 with Supporting
Business Records Affidavit (Bates
Stamped Ex. B 001-360).
Exhibit C: Trent Taylor’s Texas Department of
Criminal Justice Grievance Records,
TDCJ#: 01691384 from April 2013 to
January 2015 with Supporting
Business Records Affidavit (Bates
Stamped Ex. C 001-194).
Exhibit D: Trent Taylor’s Texas Department of
Criminal Justice No Records Affidavit
for Office of the Inspector General,
TDCJ#: 01691384 (Bates Stamped Ex.
D 001).
Exhibit E: Trent Taylor’s Texas Department of
Criminal Justice Emergency Action
Center, TDCJ#: 01691384 (Bates
Stamped Ex. E 001-005).
Exhibit F: Trent Taylor’s Texas Department of
Criminal Justice Patient Liaison
Records, TDCJ#: 01691384 (Bates
Stamped Ex. F 001-010).

39a
In support of their Motion for Summary
Judgment, Defendants Henderson and Orr included
575 pages of exhibits, including the following:
Exhibit A: Trent Taylor’s Texas Department of
Criminal Justice No Records Affidavit
for Office of the Inspector General,
TDCJ#: 01691384 (Bates Stamped Ex.
A 001).
Exhibit B: Trent Taylor’s Texas Department of
Criminal Justice Medical Records,
TDCJ#: 01691384 from April 2013 to
January 2015 with Supporting
Business Records Affidavit (Bates
Stamped Ex. B 001-360).
Exhibit C: Trent Taylor’s Texas Department of
Criminal Justice Grievance Records,
TDCJ#: 01691384 from April 2013 to
January 2015 with Supporting
Business Records Affidavit (Bates
Stamped Ex. C 001-194).
Exhibit D: Trent Taylor’s Texas Department of
Criminal Justice Emergency Action
Center, TDCJ#: 01691384 (Bates
Stamped Ex. D 001-005).
Exhibit E: Trent Taylor’s Texas Department of
Criminal Justice Patient Liaison
Records, TDCJ#: 01691384 (Bates
Stamped Ex. E 001-010).

40a
B. Plaintiff’s Brief in
Defendants’
Motion
Judgment

Opposition to
for
Summary

Plaintiff filed his response to Defendants Robert
Stevens, Robert Rojas, Ricardo Cortez, Stephen
Hunter, Larry Davidson, Melissa Olmstead, and
Shane Swaney’s Motion for Summary Judgment on
November 2, 2016. He did not file a response to
Defendants Creastor Henderson and Stephanie Orr’s
Motion for Summary Judgment. He restated the facts
stated in his prior pleadings, repeated his claims
against the Defendants, and argued that he was in
fact subjected to cruel and unusual punishment and
deliberate indifference by the Defendants. Plaintiff
disputed the assertion that he had not properly
exhausted his claims and also disputed Defendants
Olmstead’s assertion that no use of force occurred and
that medical record evidence did not support his claim
of injury. In support of his response, Plaintiff included
a declaration made under penalty of perjury, as well
as copies of relevant grievances and medical records.
IV. ANALYSIS
A. Exhaustion
Defendants argue that Plaintiff’s claims against
all of the Defendants other than Defendant Olmstead
and Defendant Rojas should be dismissed because he
failed to properly exhaust his administrative
remedies. While Defendants specifically note that
Plaintiff filed timely grievances against Defendant
Olmstead regarding his excessive use of force claim
and against Defendant Rojas for his deliberate-

41a
indifference claim stemming from his alleged failure
to take Plaintiff to the restroom, they contend,
however, any grievances regarding the remaining
Defendants fail to satisfy the exhaustion requirement
because they were either untimely or failed to name
the Defendants specifically in the grievances that
were filed.
In his objection, Plaintiff refers to copies of
grievances attached to his original complaint, and
counters the arguments as follows:
(1) Grievance No. 2014027417 regarding the
unconstitutional
conditions
of
his
confinement lists Defendants Cortez, Hunter,
Davidson, and Stevens, and was written for
him on September 12, 2013, because he was
not permitted to have writing materials.
Although it was allegedly not handled
properly, Plaintiff contends that his failure to
properly exhaust in this instance should be
excused because it was not returned to him
until after the deadline to file had passed,
making exhaustion unavailable to him.
(2) He exhausted his claim pertaining to
Defendant Rojas’ refusal to allow him to use
the restroom resulting in sharp pain and
causing Plaintiff to eventually urinate on
himself in Step 1 Grievance No. 2014013418
filed on September 20, 2013, and through the
Step 2 Grievance filed on October 17, 2013. In
said grievance, Plaintiff says he is “writing
this grievance on TDCJ as a whole,” and
mentions the overflowing drain in his cell,

42a
and an attempt by Defendant Rojas to “spot
dry raw sewage” without the use of chemicals.
Plaintiff’s Step 2 Grievance was timely filed,
and returned to him on December 3, 2013.
42 U.S.C. § 1997e(a), as amended by the Prison
Litigation Reform Act (“PLRA”), provides that “[n]o
action shall be brought with respect to prison
conditions under section 1983 of this title, or any
other Federal law, by a prisoner confined in any jail,
prison, or other correctional facility until such
administrative remedies as are available are
exhausted.” The PLRA does not, however, specify who
must be named in a prison grievance in order to
exhaust properly the prison grievance system. See
Jones v. Bock, 549 U.S. 199, 127 S. Ct. 910, 922-23
(2007). Instead, “it is the prison’s requirements, and
not the PRLA, that define the boundaries of proper
exhaustion.” Id. at 923. Defendants do not argue, and
nothing in the record indicates, that the Texas
grievance procedures require the prisoner to
specifically name a particular official.
“[T]he primary purpose of a grievance is to alert
prison officials to a problem, not to provide personal
notice to a particular official that he may be sued; the
grievance is not a summons and complaint that
initiates adversarial litigation.” Johnson v. Johnson,
385 F.3d 503, 522 (5th Cir. 2004). However, a
grievance “must provide administrators with a fair
opportunity under the circumstances to address the
problem that will later form the basis of the suit, and
for many types of problems this will often require, as
a practical matter, that the prisoner’s grievance
identify individuals who are connected with the

43a
problem.” Id. As acknowledged by the Supreme Court,
Congress intended the administrative process to
“filter out some frivolous claims and foster betterprepared litigation once a dispute did move to the
courtroom, even absent formal factfinding.” Booth v.
Churner, 532 U.S. 731, 737 (2001).
The Court has reviewed the grievance records
provided by Plaintiff and as part of the authenticated
records provided by the Defendants. Defendants have
offered nothing to show that Plaintiff’s reference to
the clogged drain and fecal matter in his Step 1
Grievance No. 2014013418 did not give prison
officials notice and an opportunity to address his
complaint about the alleged conditions of his
confinement or deliberate indifference regarding
failure to allow him to use the restroom. In fact, the
response to the Step 1 grievance specifically mentions
that staff indicated he was agitated and aggressive
and thus was not allowed out of his cell until he
calmed down, at which point he was allowed to be
escorted to the restroom. It also noted that staff
observed the drain area and indicated that it was dry
and his cell was clean. Moreover, even though
Grievance No. 2014027417 appeared to be out of time,
Defendant Stevens responded anyway, stating that
Plaintiff’s concerns were reviewed and noted, but that
staff denied he was placed in a contaminated cell and
that no evidence was found to substantiate his
allegations. Plaintiff was even permitted to file a Step
2 Grievance on December 9, 2013, that was returned
to him on January 28, 2014, with the response that
his claim had been reviewed and no evidence was
found to support his claims that he was placed in a
cell contaminated with bodily fluids.

44a
The TDCJ did not reject Plaintiff’s claims for
failure to name any specific individuals involved.
These facts weigh against the argument that these
purported defects in the grievances constituted a
failure to exhaust. See Gates v. Cook, 376 F.3d 323,
331 n. 6 (5th Cir. 2004); see also Patterson v. Stanley,
547 F. App’x, 510, 512 (5th Cir. 2013) (finding that
even though state inmate’s grievance alleging Eighth
Amendment violations based on discontinuance of his
prescription for sunglasses did not set forth names of
prison medical director or physician’s assistant
accused of the misconduct, grievance sufficiently
alerted prison staff to the problem, as required for
inmate to exhaust administrative remedies under
PLRA, by simply claiming it involved “medical staff”).
In sum, the responses to each of the grievances
discussed above indicate that the purpose of
exhaustion—affording prison officials notice and an
opportunity to resolve a problem prior to litigation—
was satisfied. Accordingly, the Court finds that
Plaintiff properly exhausted his complaints as to all
of the Defendants.
B. Qualified Immunity
Plaintiff alleges that his being held in two
separate cells that he described as filthy for a time
period of approximately 6 days amounted to cruel and
unusual punishment. He also alleges that the
Defendants were deliberately indifferent to his health
when they refused to take him to the bathroom for 24
hours and ignored his complaints of chest pains and
painful urination and that Defendant Olmstead
subjected him to excessive force.

45a
All of the Defendants raise the affirmative
defense of qualified immunity and argue that they are
entitled to summary judgment.
“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982)); see also Lytle
v. Bexar County, Tex., 560 F.3d 404, 409 (5th Cir.
2009). “Qualified immunity balances two important
interests—the need to hold public officials
accountable when they exercise power irresponsibly
and the need to shield officials from harassment,
distraction, and liability when they perform their
duties reasonably.” Id. It “is both a defense to liability
and a limited ‘entitlement not to stand trial or face
the other burdens of litigation.’” Ashcroft v. Iqbal, 556
U.S. 662, 672 (2009) (quoting Mitchell v. Forsyth, 472
U.S. 511, 526 (1985)).
In Saucier v. Katz, 533 U.S. 194 (2001), the
Supreme Court established a two-step sequence for
resolving qualified immunity claims: “First, a court
must decide whether the facts that a plaintiff has
alleged … make out a violation of a constitutional
right[; and] [s]econd, if the plaintiff has satisfied this
first step, the court must decide whether the right at
issue was ‘clearly established’ at the time of
defendant’s alleged misconduct.” Pearson v.
Callahan, 555 U.S. at 232 (quoting and citing Saucier
v. Katz, 533 U.S. at 201). This two-step sequence is
not mandatory, however, and a district court has the

46a
discretion to decide “which of the two prongs of the
qualified immunity analysis should be addressed first
in light of the circumstances in the particular case at
hand.” Id. at 236. See Reichle v. Howards, ___ U.S.
___, 132 S. Ct. 2088, 2093 (2012) (quotation omitted)
(noting that a court “may grant qualified immunity on
the ground that a purported right was not ‘clearly
established’ by prior case law, without resolving the
often more difficult question whether the purported
right exists at all”). See Griggs v. Brewer, 841 F.3d
308, 313 (5th Cir. 2016) (citing Pearson v. Callahan,
555 U.S. 223, 236 (2009) (“[t]he two steps of the
qualified immunity inquiry may be performed in any
order.”)
“A Government official’s conduct violates clearly
established law when, at the time of the challenged
conduct, ‘[t]he contours of [the] right [are] sufficiently
clear’ that every ‘reasonable official would have
understood that what he is doing violates that right.’”
Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131 S. Ct. 2074,
2083 (2011) (quoting Anderson v. Creighton, 483 U.S.
635, 640 (1987)). Although a case directly on point is
not required, “existing precedent must have placed
the statutory or constitutional question beyond
debate.” Id. Thus, “the right allegedly violated must
be established, ‘“not as a broad general proposition,’”
… but in a ‘particularized’ sense so that the ‘contours’
of the right are clear to a reasonable official.” Reichle
v. Howards, 132 S. Ct. at 2094 (quoting Brousseau v.
Haugen, 543 U.S. 194, 198 (2004) (per curiam), and
Anderson v. Creighton, 483 U.S. at 640). “Qualified
immunity gives government officials breathing room
to make reasonable but mistaken judgments about
open legal questions [and,] when properly applied, it

47a
protects ‘all but the plainly incompetent or those who
knowingly violate the law.’” (Ashcroft v. al-Kidd, 563
U.S. at 743 (quoting Malley v. Briggs, 475 U.S. 335,
341 (1986)).
Cell Conditions
Defendants argue that they are entitled to
qualified immunity for Plaintiff’s claims regarding
the conditions of his cells because he has provided
nothing more than conclusory allegations regarding
said conditions and he has failed to demonstrate that
he suffered any injury as a result. In other words,
even if he could demonstrate that the cells were filthy,
he has not shown that the conditions he allegedly
faced were a violation of his constitutional rights and
therefore the facts as pleaded are not sufficient to find
them liable. Defendants provided little in the way of
specific summary judgment evidence to support their
assertion that the cells were not, in fact, covered with
feces, and Defendants even place special emphasis on
notes from a mental health evaluation completed
several months after the incidents giving rise to this
complaint to support the puzzling contention that
Plaintiff “is a compulsive cleaner who reports that he
cleans his cell from top to bottom three times a day”
in order to demonstrate that his claims are unlikely.
However, there is no evidence that Plaintiff was a
compulsive cleaner before his incarceration in the
Montford Unit or that he was provided cleaning
materials during the time in question. Nevertheless,
the Court finds merit in Defendants’ general
argument and reliance on established precedent that
the alleged cell conditions do not rise to the level of a
constitutional violation.

48a
“The Constitution does not mandate comfortable
prisons … but neither does it permit inhumane ones,
and it is now settled that the treatment a prisoner
receives in prison and the conditions under which he
is confined are subject to scrutiny under the Eighth
Amendment.” Woods v. Edwards, 51 F.3d 577, 581
(5th Cir. 1995) (internal quotations omitted). A
prisoner must satisfy a two-part test, consisting of an
objective and a subjective component, to state a claim
that the conditions of his confinement violated the
Eighth Amendment. Davis v. Scott, 157 F.3d 1003,
1006 (5th Cir. 1998); Adeleke v. Heaton, 352 Fed.
Appx. 904, 907 (5th Cir. 2009). First, he must
demonstrate the objective component of conditions
were “so serious as to deprive prisoners of the
minimal measure of life’s necessities, as when it
denies the prisoner some basic human need.” Harper
v. Showers, 174 F.3d 716, 720 (5th Cir. 1999).
“Second, under the subjective standard, the prisoner
must establish that the responsible prison officials
acted with deliberate indifference to his conditions of
confinement.” Id. With respect to the deliberate
indifference standard, “a prison official cannot be
found liable under the Eighth Amendment … unless
the official knows of and disregards an excessive risk
to inmate health or safety; … the official must both be
aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists,
and he must also draw the inference.” Farmer v.
Brennan, 511 U.S. 825, 837 (1994). Finally, in order
to state a claim, a prisoner must allege facts showing
that he received more than a de minimis injury due to
conditions. Alexander v. Tippah County, Miss., 351
F.3d 626, 631 (5th Cir. 2003).

49a
The Fifth Circuit has held that virtually
permanent conditions of cells that contained
excrement and other filth violate the Eighth
Amendment. In Harper v. Showers, 174 F.3d 716, 716
(5th Cir. 1999), there were “continual” conditions of
“filthy, sometimes feces-smeared cells,” and in Gates
v. Cook, 376 F.3d 323, 338 (5th Cir. 2004), there were
“‘extremely filthy’ [cells] with crusted fecal matter,
urine, dried ejaculate, peeling and chipping paint,
and old food particles on the walls.” By contrast, in
Davis v. Scott, 157 F.3d 1003, 1005 (5th Cir. 1998),
the Fifth Circuit found no constitutional violation
when a prisoner was locked in a “management cell”
for three days, where the cell was, “according to
Davis, ‘just filthy, with ‘blood on the walls and
excretion on the floors and bread loaf on the floor.’”
Davis, 157 F.3d at 1004, 1006. The appeals court
quoted the Supreme Court’s holding that “‘the length
of confinement cannot be ignored.… A filthy,
overcrowded cell … might be tolerable for a few days
and intolerably cruel for weeks or months.’” Id. at
1006 (quoting Hutto v. Finney, 437 U.S. 678, 686-87
(1978)). The Fifth Circuit found that “Davis did not
suffer an extreme deprivation of any ‘minimal
civilized measure of life’s necessities’” when he was
confined in the cell for only three days. Id. (quoting
Wilson, 501 U.S. at 304; cf. Smith v. Copeland, 87
F.3d 265, 269 (8th Cir. 1996) (no Eighth Amendment
violation when prisoner was exposed for four days to
raw sewage from an overflowed toilet in his cell)).
While Plaintiff, unlike Davis, did not receive
cleaning supplies, his pleadings indicate that he was
exposed to the alleged conditions for only a matter of
days. He also indicated that he was allowed to shower

50a
twice, and Defendants did attempt to clean the cells
by using a towel to wipe the sewage from the floor and
also cleaning all but the ceiling. Moreover, Plaintiff
did not show that he suffered any injury as a result of
this brief exposure, other than burning eyes and
throat from the fumes coming from the smells
emanating from the backed-up drain. See also
McCord v. Maggio, 927 F.2d 844, 848 (5th Cir. 1991)
(remanding for determination of whether the plaintiff
suffered a “significant injury” under the legal
standard then in effect where inmate housed in
“harsh and occasionally disgusting conditions” over
an extended period of time, including a 10-month
period without a bunk during which he had to sleep
on a mattress on the floor despite flooding and sewage
backup); McClure v. Foster, Civ. A. No. 5:10-CV-78,
2011 WL 665819 (E.D. Tex., January 7, 2011), report
adopted at 2011 U.S. Dist. LEXIS 15437, 2011 WL
941442 (E.D. Tex., February 16, 2011), aff’d 465 F.
App’x 373, 2012 WL 1059408 (5th Cir., March 29,
2012). In McClure, the plaintiff complained he was
placed in a very cold concrete cell with no clothes and
the cell was dirty, with “pubic hair, hair, dirty, and
bits of molded food,” with “dry pee all over the toilet
seat and back as well as the floor.” He remained in the
cell for three days. The district court, citing Davis and
McCord, dismissed the lawsuit, and the Fifth Circuit
affirmed.
The Court finds that although the conditions of
Plaintiff’s confinement may have been quite
uncomfortable during the days he was held in the two
cells in question, the conditions did not violate the
Eighth Amendment’s prohibition against cruel and
unusual punishment. Accordingly, Plaintiff has failed

51a
to rebut Defendants’ assertion of qualified immunity
on his conditions-of-confinement claim, and their
Motions for Summary Judgment should be granted.
Deliberate Indifference
Defendants also argue that they are entitled to
qualified immunity as to Plaintiff’s claim that they
were deliberately indifferent to his health and safety
when (1) Defendants Rojas, Martinez, and Ortiz failed
to take him to the bathroom over a 24-hour period and
ignored his complaints of chest pains; (2) when
Defendant Henderson failed to assess his complaints
of chest pains on September 12, 2013; and (3) when
Defendant Orr failed to respond to his request for
medical care related to painful urination on
September 14, 2013.
“Deliberate indifference is an extremely high
standard to meet.” Domino v. Texas. Dep’t of Criminal
Justice, 239 F.3d 752, 756 (5th Cir. 2001). The
plaintiff must establish that the defendants “refused
to treat him, ignored his complaints, intentionally
treated him incorrectly, or engaged in any similar
conduct that would clearly evince a wanton disregard
for any serious medical needs.” Id. (internal quotation
marks and citation omitted). Thus, neither an
incorrect diagnosis nor the failure to alleviate a
significant risk that an official should have perceived
but did not will be sufficient to establish deliberate
indifference. See id. Similarly, unsuccessful
treatment, medical malpractice, and acts of
negligence do not constitute deliberate indifference;
nor does a prisoner’s disagreement with his medical
treatment, absent exceptional circumstances. See

52a
Gobert v. Caldwell, 463 F.3d 339, 346 (5th Cir. 2006).
“Medical records of sick calls, examinations,
diagnoses, and medications may rebut an inmate’s
allegations of deliberate indifference.” Banuelos v.
McFarland, 41 F.3d 232, 235 (5th Cir.1995).
Plaintiff first complains that Defendants Rojas,
Ortiz, and Martinez refused to escort him to the
bathroom for approximately 24 hours while he was in
the seclusion cell, instead advising him to urinate into
the drain. Plaintiff refused to urinate into the drain
because he alleged it was already overflowing.
Plaintiff complains that holding his urine for an
extended amount of time resulted in a distended
bladder and ultimately causing him to urinate
involuntarily. Plaintiff alleges that the refusal to take
him to the restroom amounted to deliberate
indifference to his serious medical needs.
Defendants Rojas, Ortiz, and Martinez do not
directly deny Plaintiff’s allegations that they refused
him the opportunity to use the restroom on
September 12, 2013, or that they advised him to “pee
in the drain like everyone else.” Defendant Rojas,
however, provided summary judgment evidence in
the form of security notes for September 12 that
indicate Plaintiff was checked out fairly regularly and
that he “refused all” or specifically refused
restroom/toilet each time, except for at 1900 where it
indicates that he was taken to the bathroom.
Moreover, Defendants appear to argue that Plaintiff
did not suffer any injury as a result of their actions.
The Court agrees. Although Plaintiff preferred not to
urinate in the drain, Plaintiff has not provided
anything other than unsupported and conclusory

53a
assertions that he was denied the opportunity to go to
the restroom for 24 hours, rather than declining the
opportunity to do so. Moreover, he has not
demonstrated that it was not physically possible for
him to relieve himself in the drain as instructed and
thus prevent his discomfort and eventual bladder
distension. A prisoner seeking to recover damages on
a conditions-of-confinement claim must establish a
physical injury that is more than de minimis. See
Alexander v. Tippah County, Miss., 351 F.3d 626, 631
(5th Cir. 2003) (finding inmates who had to urinate
and defecate in a grate-covered hole in the floor and
suffered nausea and vomiting as a result did not
sustain an injury sufficient to trigger the protection of
the Constitution). In the instant case, the record does
not support a finding that Plaintiff’s distended
bladder was a physical injury; but even if it were, the
Court does not find it to be more than de minimus.
Next, Plaintiff claims that Defendants Rojas,
Martinez, and Henderson were deliberately
indifferent to his health and safety on September 12,
2013, when they intentionally ignored his complaints
of chest pains for two hours before Defendant
Henderson provided him with an assessment.
Plaintiff further complains that Defendant
Henderson was deliberately indifferent when she
failed to transfer him to the emergency room, despite
being advised to do so by a charge nurse, which
advisory was denied due to security being unable to
escort him. Plaintiff does not claim that he suffered
any injury related to the chest pains. According to
Plaintiff’s complaint, he began complaining of chest
pains around 19:30 hours, and Defendant Henderson
did not arrive to assess him until sometime between

54a
21:00 and 22:00. According to the competent
summary judgment evidence provided by Defendants,
a Daily Care / Note was entered by Defendant
Henderson at 21:21:20 describing her assessment of
Plaintiff, wherein he was assessed and provided with
medication. The notes also indicate that Plaintiff was
to be rechecked and, if any further complaints were
voiced, then to go to the emergency room for an EKG.
Plaintiff has not alleged, and the Court can find no
record of, any further complaints regarding chest
pains. As Plaintiff did not suffer any harm as a result
of a delay in medical treatment for his chest pains, he
cannot overcome Defendants Rojas, Martinez, and
Henderson’s entitlement to qualified immunity on
these claims.
Plaintiff next specifically claims that Defendant
Nurse Stephanie Orr was deliberately indifferent to
his health and safety when she failed to promptly
evaluate and treat him for bladder pain on September
14, 2013. Plaintiff complains that as a result of the
delay in treatment, he required treatment in the
emergency room in the form of catheterization.
According to his complaint, Plaintiff alleges that
he reported to Defendant Orr that he needed to see a
doctor at 10:30 hrs., to which she responded that he
should write a sick-call on Monday. Plaintiff asserts
that Defendant Orr knew that he could not have
writing materials while in seclusion. Plaintiff claims
that it wasn’t until Orr stopped by his cell at
approximately 16:00 hrs., when he asked to see a
male doctor, that Orr asked him why and Plaintiff
informed her that he was experiencing bladder pain.
At that point, Orr assessed him and determined that

55a
his bladder was distended and contacted the
emergency room to have him treated. Plaintiff claims
that Orr’s actions of (1) requiring him to write a sickcall when she should have known he could not have
writing materials; and (2) not asking him what was
wrong the first time he informed her that he needed
to see a doctor amounted to deliberate indifference to
his serious medical needs.
Defendant Orr argues that she is entitled to
qualified immunity because both Plaintiff’s pleadings
and the competent summary judgment evidence show
that Orr was not deliberately indifferent to his
medical condition, that she acted reasonably given
the information that she possessed at the time, and
that in any event she never violated any of his
constitutional rights. Indeed, the medical records
provided by Defendants reflect that Plaintiff was seen
cell-side by medical staff every 2-4 hours, as
evidenced by the Correctional Managed Care
Seclusion/Restraint Notations entered by unit
medical staff at 0:02 hrs., 2:06 hrs., 3:47 hrs, 5:32 hrs.,
6:52 hrs., 8:53 hrs., 10:54 hrs., 12:53 hrs., and 15:18
hrs., 17:05 hrs., 19:03 hrs., 21:02 hrs., and 23.32 hrs.,
and the Daily Care Notes entered by Defendant Orr
at 16:45 hrs. and 18:27 hrs. See Def. Exh. B 160-174.
Plaintiff did not allege that Defendant Orr was aware
that he was experiencing an inability to urinate at the
time he allegedly told her he needed to see a doctor at
10:30. While the notes presumably entered regarding
Orr’s cellside visit at 10:30 do not indicate that a
request was made for a doctor, the Court can only
conclude that Orr’s failure to ask him why he needed
to see a doctor at 10:30 hrs. may amount to
negligence, but it does not rise to the level of

56a
deliberate indifference. Plaintiff does not allege, and
the records do not reflect, that he indicated a need to
see a physician for the cellside visits by medical
providers that occurred between 10:30 and 16:45 hrs.
Plaintiff has thus not established that Defendant Orr
was even aware that he was experiencing painful or
difficulty urinating before the evaluation at
approximately 16:00 hrs., much less that she
deliberately disregarded an excessive risk to his
health and safety. Moreover, assuming arguendo that
there was a delay before Plaintiff was evaluated and
received the catheter, he has not shown that a fact
issue exists on the issues of whether the delay was
due to the deliberate indifference of Defendant Orr or
that the delay resulted in substantial harm. See
Mendoza v. Lynaugh, 989 F. 2d 191, 195 (5th Cir.
1993). At most, the delays or inadequate treatment
constitute negligence, which does not rise to the level
of deliberate indifference. See Stewart v. Murphy, 174
F.3d 530, 534 (5th Cir. 1999). Plaintiff has not shown
that the conduct of Defendant Orr violated a
constitutional right. Therefore, he fails to show that
she is not entitled to qualified immunity. See Lytle,
560 F.3d at 410.
In the motion for summary judgment, Defendant
Stevens does not specifically address Plaintiff’s claims
that he should be held liable as Warden of the
Montford Unit for implementing a widespread policy
of denying inmates prompt medical attention and
allowing inmates to be housed in inhumane
conditions. Nevertheless, the Court finds that the
competent summary judgment evidence submitted in
this case does not show that Defendant Stevens
committed any constitutional violation because the

57a
Court has found that Plaintiff has not demonstrated
that his conditions-of-confinement and deliberateindifference claims amount to constitutional
violations.
Excessive Use of Force
The Supreme Court has emphasized that the core
judicial inquiry in an Eighth Amendment excessiveuse-of-force claim is “whether force was applied in a
good-faith effort to maintain or restore discipline, or
maliciously and sadistically to cause harm.” Hudson
v. McMillian, 503 U.S. 1, 7 (1992). An excessive-useof-force claim has both subjective and objective
components. Id. at 8. In other words, there is the issue
of whether the officials acted with a “sufficiently
culpable state of mind” and if the alleged wrongdoing
was objectively “harmful enough” to establish a
constitutional violation. Id. A claimant must allege
and prove there was an “unnecessary and wanton
infliction of pain.” Id. at 5. In deciding whether the
use of force was wanton or unnecessary, a court may
consider “the need for application of force, the
relationship between that need and the amount of
force used, the threat reasonably perceived by the
responsible officials, and any efforts made to temper
the severity of a forceful response.” Id. at 7. (Internal
quotation and citation omitted). The absence of a
serious injury is relevant to but not dispositive of the
excessive-force claim. Id.
The Supreme Court added the following caveat
concerning the nature of the force used in a given
situation:

58a
That is not to say that every malevolent touch
by a prison guard gives rise to a federal cause
of action. See Johnson v. Glick, 481 F.2d 1028,
1033 (2d Cir. 1973) (“Not every push or shove,
even if it may later seem unnecessary in the
peace of a judge’s chambers, violates a
prisoner’s constitutional rights”). The Eighth
Amendment’s prohibition of “cruel and
unusual punishment” necessarily excludes
from consitutional recognition de minimis
uses of physical force, provided that the use of
force is not of a sort “repugnant to the
conscience of mankind.”
Hudson v. McMillian, 503 U.S. at 9-10.
On remand in Hudson, the Fifth Circuit
concluded that the following factors are relevant in
the inquiry whether there was an excessive use of
force: “1. The extent of the injury suffered; 2. The need
for the application of force; 3. The relationship
between the need and the amount of force used; 4. The
threat reasonably perceived by the responsible
officials; and 5. Any efforts made to temper the
severity of a forceful response.” Hudson v. McMillian,
962 F.2d 522, 523 (5th Cir. 1992). See also Baldwin v.
Stalder, 137 F.3d 836, 839 (5th Cir. 1998). On the
other hand, the Fifth Circuit has repeatedly
emphasized that an inmate must have suffered more
than a de minimis physical injury. Gomez v.
Chandler, 163 F.3d 921, 924 (5th Cir. 1999). There
must always be some injury, albeit insignificant.
Knight v. Caldwell, 970 F.2d 1430, 1432 (5th Cir.
1992); Jackson v. Culbertson, 984 F.2d 699, 700 (5th
Cir. 1993). In Siglar v. Hightower, 112 F.3d 191, 194

59a
(5th Cir. 1997), the Fifth Circuit held that a sore,
bruised ear lasting for three days that resulted from
an officer twisting an inmate’s ear was de minimis
and insufficient to provide a basis for a meritorious
civil rights lawsuit. In Gomez v. Chandler, 163 F.3d
at 924-25, the Fifth Circuit held that injuries
consisting of pain and “cuts, scrapes, contusions to the
face, head and body” that resulted from inmate being
knocked down, punched, and kicked and that
required medical treatment were more than de
minimis. The Fifth Circuit also noted that even
though there must be more than a de minimis
physical injury, “there is no categorical requirement
that the physical injury be significant, serious, or
more than minor.” Id. at 924.
The Fifth Circuit has additionally held that the
question of whether the force used was more than de
minimis must be evaluated in the context in which
the force was deployed. In Ikerd v. Blair, 101 F.3d
430, 434 (5th Cir. 1996), the Fifth Circuit explained
that the amount of injury necessary to satisfy the
requirement of some injury and to establish a
constitutional violation is directly related to the
amount of force that is constitutionally permissible
under the circumstances. In Williams v. Bramer, 180
F.3d 703, 704 (5th Cir. 1999), the Fifth Circuit held
that what constitutes an injury is subjective and
decided entirely by the context in which the injury
arises. The plaintiff in Williams was choked twice: the
first choking occurred when an officer attempted to
search the plaintiff’s mouth, which resulted in
fleeting dizziness, temporary loss of breath, and
coughing. The second choking was the product of a
malicious choking, after which the plaintiff suffered

60a
the same symptoms. The Fifth Circuit held that the
first choking, did not rise to the level of a
constitutional violation under the circumstances, but
the second malicious choking, did qualify as a
cognizable injury since the officer’s actions were the
product of maliciousness, as opposed to a legitimate
search. Id. at 704. The Fifth Circuit specifically noted
that it was required to accept the plaintiff’s version of
events as true for purposes of summary judgment. Id.
More recently, the Fifth Circuit again rejected
arguments focusing solely on the extent of an inmate’s
injuries in Brown v. Lippard, 472 F.3d 384 (5th Cir.
2006). The Fifth Circuit held that the defendant was
not entitled to summary judgment because there was
evidence before the court that his actions were the
product of bad faith, regardless of the lack of
significant injury.
Plaintiff argues that Defendant Olmstead struck
him with a metal bar after they had an argument and
relies on an injury report and medical records to claim
that he was injured and to assert that Defendants
“swept the incident under the rug.” In support of her
Motion for Summary Judgment, Defendant Melissa
Olmstead argues that there is simply no evidence that
she used any force against Plaintiff, and in any event
there is no medical record evidence that Plaintiff ever
sustained any injury, much less a de minimis injury,
to his testicles. In support of this argument,
Defendant Olmstead cites to portions of the medical
record evidence submitted, states that there is no
record of a use-of-force report ever being made for
such an incident, and states that the “Office of the
Inspector General inspected Plaintiff’s claims, and

61a
found no evidence of Plaintiff’s allegations being
true.” Defendants’ Motion for Summary Judgment
(Doc. 107) at 16.
Defendant Olmstead’s summary judgment
evidence is problematic for a number of reasons. First,
to support the assertion that the medical record
evidence does not support Plaintiff’s claims of an
injury, Defendant Olmstead refers to “Ex. B at 134
and 144”; however, a review of those pages reveals
that page 134 appears to note completion of a 24-hour
chart check on September 18, 2013, and page 144 is a
Seclusion / Restraint Notation for September 16,
2013. Such records are irrelevant because Plaintiff’s
allegation is that Defendant Olmstead used excessive
force against him on October 14, 2013. A review of the
medical records attached to Plaintiff’s response as
well as the remaining medical records submitted by
Defendants reveals a Daily Care / Note entered on
October 14, 2013, by Cassandra J. Parrish, L.V.N.,
wherein Plaintiff complained about being hit by an
officer and noting that the ER nurse ordered officials
to bring Plaintiff to the ER for evaluation.
Defendant’s Motion for Summary Judgment (Doc.
107) Ex. B at 088. Also, according to the Clinic Notes,
on October 14, 2013, Plaintiff was seen for his
complaints regarding pain to his right testicle, and
although no apparent injury was visualized, Plaintiff
rated his pain at “5/10,” and the provider noted that
he “grimaces with palpation of testicles,” and
prescribed Ibuprofen for three days and an ice pack
for 24 hours. Defendant’s Motion for Summary
Judgment (Doc. 107) Ex. B at 329. Considering that
Plaintiff did make a complaint of injuries that was
evaluated by medical providers who prescribed a

62a
course of treatment, however de minimus, the Court
cannot conclude as a matter of law that Plaintiff
suffered no injury at all based on competent summary
judgment evidence.
Also, in support of the argument that the Office of
the Inspector General inspected Plaintiff’s claims and
concluded that there was no evidence that his
allegations were true, Defendant Olmstead cites to
the medical records in the appendix, specifically to
“Ex. B 133.” However, again, page 133 of Exhibit B
has nothing at all to do with any incident occurring on
October 14, 2013; rather, it is a Mental Health
Inpatient Nursing Note dated September 19, 2013.
The Court also notes that Defendants submitted a
Business Records Affidavit wherein Celia A.
Eastham, Administrative Assistant III for the Office
of the Inspector General (OIG), specifically states that
“[t]he [OIG]’s database revealed no OIG case
information concerning Offender Trent Taylor, TDCJ
# 01691384, for any OIG report for October 2013 to
March 2014 and for September 2013 to April 2014
with any photos.…” While this Affidavit may
demonstrate that there was no OIG case report at all,
it does not necessarily demonstrate that the incident
alleged to have occurred on October 14, 2013, did not
occur.
The Court cannot rely on the assertion that the
OIG concluded that there was no evidence that
Plaintiff’s allegation of excessive use of force was true
and is hard pressed to conclude as a matter of law that
because there was no use-of-force report, the incident
did not happen. Moreover, Defendant Olmstead did
not submit an affidavit either denying that the

63a
incident took place or, if it did, showing that she acted
in good faith, as opposed to acting maliciously and
sadistically.
The Constitution does not permit a corrections
officer, for no reason other than a malicious or sadistic
purpose, to hit, slap, or otherwise physically attack an
inmate so long as no visible or lasting injuries result.
Courts do sometimes look to the seriousness of the
injury to determine whether the use of force could
plausibly have been thought necessary, but pain
inflicted by excessive force may be actionable under
the Eighth Amendment even if it is not coupled with
an injury that requires medical attention or leaves
permanent marks. Brown v. Lippard, 472 F.3d 384,
387 (5th Cir. 2006). To grant summary judgment for
Defendant Olmstead would grant license to
corrections officers, for no legitimate reason, to strike
prisoners so long as no marks or injuries are visible.
Based upon the foregoing reasons and relevant
medical evidence, and taking Plaintiff’s version of
events as true, the Court concludes that a genuine
issue of material fact remains regarding whether
Defendant Olmstead used excessive force against
Plaintiff on October 14, 2013, and if so, whether she
acted wantonly and maliciously. Therefore, summary
judgment is denied with respect to the excessive-force
claim against Defendant Olmstead in her individual
capacity.
V. CONCLUSION
For the reasons stated above, it is ORDERED:

64a
1. Defendants Robert Stevens, Robert Rojas,
Ricardo Cortez, Stephen Hunter, Larry Davidson,
Melissa Olmstead, and Shane Swaney’s Motion for
Summary Judgment filed on October 10, 2016, is
GRANTED in part and DENIED in part.
2. Defendants
Creastor
Henderson
and
Stephanie Orr’s Motion for Summary Judgment filed
on November 14, 2016, is GRANTED.
3. Plaintiff’s complaint and all claims alleged
therein against Defendants Robert Stevens, Robert
Rojas, Ricardo Cortez, Stephen Hunter, Larry
Davidson, Shane Swaney, Creastor Henderson,
Stephanie Orr, Franco Ortiz, and Joe Martinez are
DISMISSED with prejudice.
4. Plaintiff’s claim of excessive use of force
against Defendant Melissa Olmstead in her
individual capacity remains pending and set for trial
on March 6, 2017.
5. Plaintiff’s Motion to Excuse Local Rule of
Judges Copy and Motion to Allow Plaintiff to Have
His Exhibits Returned filed on November 2, 2016, is
GRANTED. The Clerk is directed to return to
Plaintiff a copy of his Exhibits B and C attached to his
Brief in Opposition to Defendants’ Motion for
Summary Judgment filed on November 2, 2016. Any
future motion for the return of copies or free copies
shall be denied.
6. All relief not expressly granted is denied and
all pending motions are hereby denied.

65a
Judgment shall be entered accordingly.
Dated January 5, 2017.
/s/ Sam R. Cummings
Sam R. Cummings
Senior United States
District Judge

66a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION
TRENT TAYLOR,
Institutional ID
No. 1691384,
SID NO. 6167597,
Previous TDCJ No.
1336391,

§
§
§
§
§
§
§
Plaintiff,
§
§ CIVIL ACTION
v.
§ NO. 5:14-CV-149-C
§
ROBERT STEVENS, et al., §
§
Defendants.
§ ECF
ORDER
Before the Court is Plaintiff’s Objection to
Judgment Entered Pursuant to 54(b), Motion to Alter
or Amend Judgment Pursuant to Fed. R. Civ. P. 59(e),
and Motion to Allow Plaintiff to Take Further
Discovery Pertaining to His Excessive Use of Force
Claim filed on January 26, 2017.
The Court has reviewed Plaintiff’s Objections and
finds that his Motion to Alter or Amend Judgment
Pursuant to Fed. R. Civ. P. 59(e) should be DENIED.

67a
Finally, Plaintiff requests further discovery
pertaining to his excessive use of force claim in the
form of 8 categories of documents. Upon review of the
motion, the Court finds as follows:
(1) Plaintiff’s request for “[a]ny and all records of
Defendant Olmstead (disciplinary and or
otherwise[)] regarding her employment in the
Texas Department of Criminal Justice” is
DENIED as overly broad and unduly
burdensome
on
Defendant
Olmstead.
However, the Court finds that his request for
records of disciplinary actions taken against
Defendant Olmstead is GRANTED, but only
to the extent such disciplinary actions
specifically relate to unjustified use of
force against Texas Department of
Criminal Justice (TDCJ) inmates.
On or before February 13, 2017, Counsel for
Defendant Olmstead shall file, with the
Court, any documents related to disciplinary
action against Defendant Olmstead UNDER
SEAL or file a statement that there are no
such documents. The Court will make any
such documents available to Plaintiff
immediately prior to trial and such
documents shall be returned to the Clerk of
Court at the end of trial.
(2) Plaintiff’s request for “[a]ny and all
grievances for use of force reported or
unreported regarding [Defendant Olmstead]”
is DENIED. The Court finds that this request

68a
is overly broad and unduly burdensome on
Defendant.
(3) Plaintiff’s request for “[a]ny and all records
pertaining to falsification of any records by
employees of the TDCJ John Montford Unit”
is DENIED. The Court finds that the request
is overly broad and unduly burdensome on
Defendant.
(4) Plaintiff’s request for “[a]ny and all reports of
unauthorized use of forces [sic] 6 months prior
to said indigent up until todays date” is
DENIED. The Court finds that the request is
overly broad and unduly burdensome on
Defendant.
(5) Plaintiff’s request for “[a]ny and all reports
and or directives pertaining to use of force
reporte[d] or unreported” is DENIED.
Plaintiff has not shown cause why such
documents are relevant to his complaint, as
this case involves his claim that his
constitutional rights were violated. This case
does not involve or require demonstration of a
violation of a TDCJ policy.
(6) Plaintiff’s request for a copy of the TDCJ
Offender Grievance Manual is DENIED.
Plaintiff has failed to demonstrate that the
TDCJ Grievance Manual is relevant to his
claim of excessive force.
(7) Plaintiff’s request for “[a]ny and all directives
pertaining to actions taken after injuries

69a
occurred by use of excessive force or any other
action” is DENIED. Plaintiff has not shown
cause why such documents are relevant to his
complaint, as this case involves his claim that
his constitutional rights were violated. This
case
does
not
involve
or
require
demonstration of a violation of a TDCJ policy.
(8) Plaintiff’s request for “[a]ny and all rules and
regulations pertaining to OIG use of force
investigations” is DENIED. Plaintiff has not
shown cause why such documents are
relevant to his complaint, as this case involves
his claim that his constitutional rights were
violated. This case does not involve or require
demonstration of a violation of a TDCJ policy.
SO ORDERED.
Dated January 30, 2017.
/s/ Sam R. Cummings
Sam R. Cummings
Senior United States
District Judge

70a
APPENDIX D
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-10253
TRENT TAYLOR,
Plaintiff - Appellant,
v.
ROBERT STEVENS, Warden, Individually and in
their Official Capacity; ROBERT RIOJAS, Sergeant
of Corrections Officer, Individually and in their
Official Capacity; RICARDO CORTEZ, Sergeant of
Corrections Officer, Individually and in their Official
Capacity; STEPHEN HUNTER, Correctional Officer,
Individually and in their Official Capacity; LARRY
DAVIDSON, Correctional Officer, Individually and in
their Official Capacity; SHANE SWANEY, Sergeant
of Corrections Officer, Individually and in their
Official Capacity; FRANCO ORTIZ, Correctional
Officer, Individually and in their Official Capacity;
CREASTOR HENDERSON, L.V.N., Individually and
in their Official Capacity; STEPHANIE ORR, L.V.N.,
Individually and in their Official Capacity; JOE
MARTINEZ,
Defendant - Appellees.

71a

Appeal from the United States District Court
for the Northern District of Texas

ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion: December 20, 2019, 5 Cir., ____, ____ F.3d
____ )
Before OWEN, Chief Judge, JONES and SMITH,
Circuit Judges.
PER CURIAM:
() The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this
cause en bane, and a majority of the judges in

72a
active service and not disqualified not having
voted in favor, Rehearing En Banc is DENIED.
ENTERED
COURT

FOR

THE

/s/ Jerry E. Smith
UNITED STATES
CIRCUIT JUDGE
[Dated: January 29, 2020]

